                                                                C-IN-BLM-0106-2002-A


             United States Department of the Interior
                            Office of Inspector General
                                  Washington, D.C. 20240




                                                                March 19, 2003
Memorandum

To:        Director, Bureau of Land Management


From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Management Issues Identified During the Audit of the Bureau of Land
           Management’s Fiscal Year 2002 Financial Statements (No. 2003-I-0036)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Land Management’s (BLM) financial statements as of September
30, 2002 and for the year then ended. In conjunction with its audit, KPMG noted certain
matters involving internal control and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on BLM’s financial statements (Report
No. 2003-I-0024) and do not constitute reportable conditions as defined by the American
Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.



Attachment



cc:     Assistant Secretary for Land and Minerals Management
        Chief Financial Officer, Bureau of Land Management
        Director, Office of Financial Management
        Director, National Business Center, Bureau of Land Management
        Audit Liaison Officer, Land and Minerals Management
        Audit Liaison Officer, Bureau of Land Management
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
      Suite 2700
      707 Seventeenth Street
      Denver, CO 80202




December 16, 2002


The Director of the Bureau of Land Management
 and the Inspector General of the Department of the Interior:

We have audited the financial statements of the Bureau of Land Management (BLM) for the year ended
September 30, 2002, and have issued our report thereon dated December 16, 2002. In that report, our
opinion on the financial statements referenced a change in the BLM’s method of accounting for allocation
transfers as of October 1, 2001. In planning and performing our audit of the financial statements, we
considered internal control in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements. An audit does not include examining the effectiveness of internal
control and does not provide assurance on internal control. The maintenance of adequate internal control
designed to fulfill control objectives is the responsibility of management. Because of inherent limitations in
internal control, errors or fraud may nevertheless occur and not be detected. Also, controls found to be
functioning at a point in time may later be found deficient because of the performance of those responsible
for applying them, and there can be no assurance that controls currently in existence will prove to be
adequate in the future as changes take place in the organization. We have not considered internal control
since the date of our report.

During our audit we noted certain matters involving internal control and its operation that we consider to
be reportable conditions or material weaknesses under standards established by the American Institute of
Certified Public Accountants. These matters have been reported to management in our report on the
financial statements of the BLM for the year ended September 30, 2002, dated December 16, 2002. In that
report we identified the following matters as reportable conditions:

A.    Accounting for Property

B.    Accruing for Year-end Payables

C.    Security and Internal Control Over Information Technology Systems

D.    Accounting for Intra-departmental Transactions

E.    Internal Control Over Charge Cards

F.    Timely Deobligation of Undelivered Orders

We considered reportable conditions A and B, listed above, to be material weaknesses.

Reportable conditions are matters coming to our attention relating to significant deficiencies in the design
or operation of the internal control over financial reporting that, in our judgment, could adversely affect the
BLM’s ability to record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which the design



                  KPMG, LLP. KPMG, LLP a U.S. limited liability partnership, is
                  a member of KPMG International, a Swiss association.=
The Director of the Bureau of Land Management
and the Inspector General of the Department of the Interior
December 16, 2002
Page 2


or operation of one or more of the internal control components does not reduce to a relatively low level the
risk that misstatements, in amounts that would be material in relation to the financial statements being
audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Our consideration of internal control would not necessarily disclose
all matters in internal control that might be reportable conditions or material weaknesses.

During our audit we also noted certain other matters involving internal control that are not considered to be
material weaknesses or reportable conditions. We would like to bring these matters to your attention. These
comments and recommendations, all of which have been discussed with the appropriate members of
management, are intended to improve internal control or result in other operating efficiencies and are
summarized below.

In addition to our 2002 comments and recommendations, we have reported the status of prior year
management letter comments. Their current status is addressed in the progress on prior year management
letter recommendations section of this letter.

Fund Balance With Treasury Discrepancy
Generally accepted accounting principles for federal entities require them to explain discrepancies in fund
balance with Treasury between the entity’s general ledger accounts and amounts reported by the U.S.
Treasury Department. Discrepancies due to time lags are to be reconciled and discrepancies due to error are
to be corrected when financial reports are prepared.

Our audit found that the Treasury Department is reporting a cash balance of approximately $7.9 million in
the BLM’s Special Acquisition For Lands & Minerals account. The BLM has not included these amounts
in its general ledger or its financial statements, but does include them in its reporting to the Treasury.

The BLM believes the cash balance stems from transactions in the mid 1980s. At that time, the BLM
disbursed more money to federal agencies and states than it collected from land leases. The difference
between collections and disbursements was the result of monetary credits issued by the BLM to lessors.
The BLM believes its general ledger is correct as of September 30, 2002, and it is not liable to the Treasury
Department for the $7.9 million. The BLM asserts the cash balance is an issue that needs to be corrected by
the Treasury Department, but has agreed for tracking purposes to continue to report the amount in reports
to the Treasury Department.

If the resolution of the above discrepancy does not favor the BLM, then fund balance with Treasury, as
reported in the BLM’s financial statements, is overstated by $7.9 million.

Recommendation

The BLM should proactively contact the Treasury Department and collaborate with them in researching
and resolving the $7.9 million cash balance reported in the BLM’s Special Acquisition For Lands &
Minerals account. Resolution of the cash balance should result in either the discontinuance of the BLM
reporting such amount to the Treasury or the BLM including the amount in its general ledger and financial
statements.
The Director of the Bureau of Land Management
and the Inspector General of the Department of the Interior
December 16, 2002
Page 3


BLM Response

The BLM agrees this discrepancy with the Treasury Department needs to be resolved. Attempts have been
made in the past to resolve this issue, but were not successful. Because this balance is very old, little
documentation is available and knowledgeable personnel are no longer with the BLM. However, the BLM
has already started to pursue this issue again. The BLM’s Business Center has contacted the BLM budget
office, the Department of the Interior’s budget office and the Office of Management and Budget (OMB)
and OMB is obtaining a contact to work with at the Treasury Department. The BLM will continue to
pursue this issue until it is resolved.

Reconciliation and Timely Removal of Amounts From Suspense Accounts
Suspense accounts are liability accounts that include collections awaiting disposition or reclassification.
Our audit found instances of collections that should have been removed from the suspense accounts prior
to fiscal year-end 2002. While these amounts were not material to the fiscal year 2002 financial statements,
the errors resulted in the untimely transfer of funds to other Department of the Interior agencies,
overstatements of liabilities, understatements of revenue, and overstatements of expense. It appears the
untimely clearing of suspense amounts may stem from the lack of a complete aging analysis, including
amounts coded to the BLM’s National Business Center (NBC), and the investigation of older accounts.

Recommendation

The BLM should develop procedures to thoroughly review and reconcile its suspense accounts on a timely
basis throughout the year. The review should include a complete aging analysis of all suspense amounts,
with older accounts being investigated for appropriateness.

BLM Response

The BLM issued Instruction Memorandum (IM) 2001-040, Using the Aging Analysis Report to Clear
Suspense Accounts, on June 7, 2001. This IM required field offices to perform annual aging analysis of
suspense accounts and submit the results to the BLM’s NBC. While the field offices are complying with
the IM’s requirement, there is a varying degree of follow-up being performed by the NBC due to the
limited availability of resources. As a result, the NBC will continue to train the field offices on the
importance of removing suspense account transactions timely. The first training session was held on
January 28, 2003 during the bureau-wide Collections and Billing System (CBS) Accounts Workshop.
Similar sessions are planned throughout the year. Additionally, beginning in FY 2003, the IM’s
requirements are now being applied to suspense accounts for which the NBC is responsible.

Improvements in Deferred Maintenance Reporting
Generally accepted accounting principles for federal entities require them to report, as supplementary
information to its financial statements, the condition of the entity’s property, plant, and equipment and the
dollar amount of future maintenance needed to return the assets to an acceptable operating condition. This
form of reporting is commonly referred to as deferred maintenance.
The Director of the Bureau of Land Management
and the Inspector General of the Department of the Interior
December 16, 2002
Page 4


We found the BLM does not have adequate procedures in place for reviewing and updating, in a timely
manner, amounts of deferred maintenance recorded in its Facility Inventory Maintenance Management
System (FIMMS). Our audit noted several instances where the recorded amounts in FIMMS were
overstated because deferred maintenance work had been previously completed. The overstatements appear
to be the result of inadequate and untimely reviews of the FIMMS data, which has resulted in the BLM
reporting inaccurate amounts of future maintenance needs.

Recommendation

The BLM should implement a process to perform timely and periodic reviews of deferred maintenance
amounts recorded in FIMMS to ensure data is updated on a regular basis. To assign accountability, the
reviews should be documented and approved by management through a certification procedure.

BLM Response

The BLM is currently in the process of replacing the existing FIMMS with the new Facility Asset
Management System (FAMS) application, also known as MAXIMO. As the BLM transitions from FIMMS
to the new FAMS, the Bureau will have the increased capability to track deferred maintenance tasks from
inception to completion, to input maintenance accomplishments, and to initiate timely reviews and analysis
of facilities data. More importantly, the new FAMS will be much more visible for accountability purposes
in terms of reviewing and updating data. Additionally, the recommendation to develop a review process
and to include a certification procedure for accountability will be incorporated into the improved process.

FAMS Phase I deployment will begin in April 2003, with the application expected to be partially
operational by FY 2004 and fully operational by FY 2005. Until FAMS has completely replaced FIMMS,
the BLM will continue its cleanup of FIMMS data, as well as validate data through a national condition
assessment effort that will begin in March 2003.

Improvements in Supporting Documentation for Financial Reporting
Generally accepted accounting principles for federal entities require an entity’s financial statements be
fully supported by underlying records. Further, federal budgetary regulations require documentary
evidence for the recording of an obligation of federal funds. When precise amounts are not known at the
time an obligation is incurred, the obligation should be recorded on the basis of an entity’s best estimate.
The basis for the estimate must be shown on the obligating document.

Our audit found instances of a lack of adequate supporting documentation for certain budgetary obligations
related to the BLM’s Wildland Fire Management Account and for certain year-end journal entries
necessary to prepare the financial statements. These types of transactions required additional follow-up
discussions with BLM personnel. A lack of adequate supporting documentation increases the risk that
entries to the financial records are not recorded accurately and does not provide an adequate audit trail for
subsequent analysis of transactions, especially in instances where personnel have left the BLM and there is
no one available to verbally explain the transactions.
The Director of the Bureau of Land Management
and the Inspector General of the Department of the Interior
December 16, 2002
Page 5


Recommendation

The BLM should ensure all obligations of federal funds are adequately supported. Supporting
documentation should include the basis for any estimates made and the individuals involved in determining
the estimates. The documentation should then be attached to the obligating document.

The BLM should implement standards to ensure year-end adjusting journal entries to the financial
statements are adequately supported by documentation. Such documentation should be able to stand alone
to support the adjustment without the need for extensive verbal explanations.

BLM Response

The BLM agrees that not all year-end miscellaneous obligations have adequate supporting documentation.
The BLM will begin the process of implementing policy to require adequate supporting documentation for
the miscellaneous obligations entered into the Federal Financial System at year-end. For these transactions,
additional training and monitoring will need to take place. Further guidance in the Annual Year-End Memo
to all field officials will require this additional documentation for miscellaneous obligations.

The BLM agrees that its supporting documentation for year-end adjusting journal entries could be
improved in some instances. However, overall the BLM feels it has adequate supporting documentation,
especially given the time constraints during the financial statement preparation process. Due to the
complex nature of the BLM’s mission and financial transactions, not all year-end adjustments are simple
two-line, easily explainable journal entries. Some adjusting journal entries require an extensive
explanation. In order for all year-end adjusting journal entry supporting documentation to “be able to stand
alone to support the adjustment without the need for extensive verbal explanations,” the extensive
explanation must be documented. The BLM accountants that prepare the financial statements fully
understand the supporting documentation currently kept on file and are able to explain the purpose of each
entry. The BLM does not feel that extensive written explanations, beyond the need for BLM employee
verbal explanations, for every year-end adjusting journal entry is a valuable use of time.

Progress On Prior Year Management Letter Recommendations
The following is a summary of the implementation status of prior year management letter comments.

               Comment                                                    Status



Accreditation of Information                   Partially Implemented. Our fiscal year 2002 audit found
Systems – The BLM had not accredited           the BLM’s internal network had not been accredited.
its general support systems and the            However, accreditations had occurred for other general
major applications used to process, store,     support systems and major applications.
or transmit classified or sensitive
information.
The Director of the Bureau of Land Management
and the Inspector General of the Department of the Interior
December 16, 2002
Page 6


                Comment                                                  Status



Network Security – The BLM had not            Partially Implemented. Our fiscal year 2002 audit
established sufficient controls to protect    revealed the BLM had made improvements in its overall
its network from unauthorized access.         network security; however, certain technical and procedural
                                              access controls over the network had not been fully
                                              developed and implemented to minimize the risks of
                                              unauthorized internal access. This condition was included
                                              as a part of a reportable condition in internal control over
                                              information technology systems, which was discussed in
                                              our report on the financial statements of the BLM for the
                                              year ended September 30, 2002, dated December 16, 2002.

IT Application Access – The BLM had           Partially Implemented. Our fiscal year 2002 audit
not established sufficient access controls    revealed that approximately half of the prior year conditions
over certain financial applications.          concerning IT application access had been corrected;
                                              however, technical and procedural access controls over
                                              certain subsidiary financial applications had not been fully
                                              developed and implemented to minimize the risks of
                                              unauthorized internal access. This condition was included
                                              as a part of a reportable condition in internal control over
                                              information technology systems, which was discussed in
                                              our report on the financial statements of the BLM for the
                                              year ended September 30, 2002, dated December 16, 2002.

IT Sensitivity Classification – The           Partially Implemented. Our fiscal year 2002 audit found
BLM had not appointed the                     the BLM had documented the classification of IT systems
responsibility or dedicated the               and data according to sensitivity level for some of its major
appropriate resources to properly             applications, but not all.
document the classification of IT
systems and data according to sensitivity
level.

IT Security Plan – The BLM had not            Partially Implemented. Our fiscal year 2002 audit
developed and implemented                     revealed the BLM had finalized its security plans for some
comprehensive IT security plans for all       of its applications, but had not done so for its internal
of its major systems.                         network and for certain other major financial applications.
                                              This condition was included as a part of a reportable
                                              condition in internal control over information technology
                                              systems, which was discussed in our report on the financial
                                              statements of the BLM for the year ended September 30,
                                              2002, dated December 16, 2002.
The Director of the Bureau of Land Management
and the Inspector General of the Department of the Interior
December 16, 2002
Page 7


                Comment                                                  Status



IT Service Continuity – The BLM had           Partially Implemented. Our fiscal year 2002 audit
not adequately updated and tested its         determined the BLM had made progress in implementing its
continuity of operations plan.                IT service continuity plan, such as the establishment of a
                                              “hot site” for its network. However, we found further
                                              improvement is still necessary given the BLM had not
                                              finalized its formal service continuity plans and tested IT
                                              continuity controls for certain financial applications. This
                                              condition was included as a part of a reportable condition in
                                              internal control over information technology systems, which
                                              was discussed in our report on the financial statements of
                                              the BLM for the year ended September 30, 2002, dated
                                              December 16, 2002.

Charge Card Reviews – The BLM had             Not Implemented. Our fiscal year 2002 audit continued to
not implemented adequate procedures to        find evidence the BLM had not fully complied with its
ensure charge card transactions are           stated charge card policies. These instances were included
properly reviewed. It was recommended         as part of a reportable condition in internal control over
the BLM ensure compliance with its            charge cards, which was discussed in our report on the
stated charge card policies.                  financial statements of the BLM for the year ended
                                              September 30, 2002, dated December 16, 2002.

Property Records – The BLM did not            Implemented. The BLM issued IM No. 2001-189 in
always have valid source documents to         August 2001 that established a new policy for the retention
verify acquisition cost for items             and disposition of capitalized property records. Our fiscal
capitalized.                                  year 2002 audit did not identify any instances of improper
                                              documentation to support the acquisition cost for items
                                              capitalized.

Undelivered Orders Contract Line              Implemented. The BLM issued IM No. 2001-043 in July
Item Accounting – The BLM’s contract          2001 that established a policy for liquidating the proper line
payments personnel were liquidating           items when payment requests involve multiple obligation
obligation line items in line item order      line items. Our fiscal year 2002 audit did not identify any
rather than matching payments to their        instances of the improper obligation line items being
specific line items. Because obligation       liquidated.
line items can involve multiple
appropriation sub-activities, it was
recommended that contracting personnel
identify the specific obligation line items
that are to be liquidated.
The Director of the Bureau of Land Management
and the Inspector General of the Department of the Interior
December 16, 2002
Page 8


               Comment                                                      Status



Museum Collections – To strengthen              Not Implemented. For financial reporting purposes the
controls over museum property, it was           BLM had materially complied with Statement of Federal
recommended the BLM implement the               Financial Accounting Standards No. 8, Supplementary
cataloging and inventory standards of           Stewardship Reporting. However, the BLM had not
the Departmental Manual (3 DM 411,              implemented a process to conduct a complete inventory of
“Standards for Managing Museum                  museum collections. The majority of museum collections
Property”), including maintaining an            originating from the BLM managed land are housed in non-
inventory listing of museum items and           federal facilities, including universities, museums, and
performing periodic verifications of the        historical societies. The BLM has stewardship responsibility
museum property.                                to ensure that museum collections removed from the public
                                                lands are held in public trust in perpetuity. The BLM has
                                                identified 165 facilities in 33 states and Canada where
                                                millions of objects originating from the public lands reside.
                                                It is recommended the BLM continue to follow-up with
                                                these facilities to obtain an understanding of the general
                                                types of BLM collections they may have. Once the BLM
                                                has identified the general types and condition of museum
                                                collections housed by non-federal facilities, the BLM on a
                                                periodic basis should reaffirm its understanding with the
                                                non-federal facilities of the status of BLM collections.



                                                 *******

Our audit procedures are designed to enable us to form an opinion on the financial statements, and
therefore may not bring to light all weaknesses in policies or procedures that may exist. We aim, however,
to use our knowledge of the BLM’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.

We will be pleased to discuss with you in more detail any of the matters referred to in this letter.

This letter is intended for the information and use of the BLM and Department of the Interior’s
management, Department of the Interior’s Office of the Inspector General, the U.S. Office of Management
and Budget, and the U.S. Congress, and is not intended to be and should not be used by anyone other than
these specified parties.

Very truly yours,
